1

No.

IN THE
SUPREME COURT OF THE UNITED STATES

VKedeKick Wayne. Smith.

— PETITIONER

(Your Name)
VS.
HON, Judge. CKaig Hickman ^■^t-^.^RESPONDENT(S)
PROOF OF SERVICE
Vn.cde.Kick Wayne SmithC#69967

, do swear or declare that on this date,
, 20l?_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Jan Phan,VVA VUtKict kttoKncy' & 0{&ice, VitcoveKy Compliance Unit
320 Dle.it T&mple. Stn.e.e.t, Room 540 L.A. CA. 9001
State o j$ CA. O^ice o$ The Attonney Genenal 300 South SpKing Stneet
Su££e:ttl702 Los Angela* Caliionnia 90013 JO: Julie. Malone, Sup, Deputy Genen&i
i declare under penalty of perjury that the foregoing is true and correct.
•---Executed on

I ^ - oJ

,2(£1
(Signature)

Additional material
from this filing is
available in the
Clerk's Office.

